Washington, D.C. 20530

April 7, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Mark Ringland v. United States of America,
S.Ct. No. 20-1204
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on February 25, 2021.
Although the government waived its right to file a response, the Court has requested that a
response be filed. The government’s response is now due on April 16, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 17, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1204
RINGLAND, MARK
USA

AMIR H. ALI
RODERICK & SOLANGE MACARTHUR
501 H ST., NE
SUITE 275
WASHINGTON, DC 20002
202-869-3434
AMIR.ALI@MACARTHURJUSTICE.ORG
CAROLINE C. CEASE
JENNER & BLOCK LLP
1099 NEW YORK AVENUE, NW
SUITE 900
WASHINGTON, DC 20001-4412
202-639-6056
CCEASE@JENNER.COM
RICHARD H. MCWILLIAMS
ASSISTANT FEDERAL PUBLIC DEFENDER
222 SOUTH 15TH STREET
SUITE 300N
OMAHA, NE 68102
402-221-7896
RICH_MCWILLIAMS@FD.ORG

